NRC: OIG/95A-15 - Observations on NRC's Document Processing and the Local Public Document Room Program
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1995 >  OIG/95A-15
OIG/95A-15 - Observations on NRC's Document Processing and the Local Public Document Room Program
Contents
Overview
Report Synopsis
Introduction
Background
Findings
NRC Information Averages Four to Five Weeks to Arrive at
LPDRs
NRC Has Not Defined Criteria or Implemented Procedures to
Ensure Timely Document Processing
A Commitment to NNSN to Upgrade the LPDRs Could Not Be Confirmed,
Although Recent Improvements Have Been Made
NRC Believes Copy Charges By LPDRs Are Reasonable
Conclusions
Objective, Scope, and Methodology
U.S. NRC Functional Organization Chart
Major Contributors to this Report
Overview
Office of The Inspector General United States Nuclear Regulatory Commission Washington, DC  20555 July 7, 1995
Memorandum To:
James M. Taylor Executive Director for Operations
Original Signed by Thomas J. Barchi
From:
Thomas J. Barchi Assistant Inspector General for Audits
Subject:
Observations on NRC's Document Processing and the Local Public Document Room Program
Attached is the Office of the Inspector General's (OIG) report entitled, "Observations on NRC's Document Processing and the Local Public Document Room Program."  We evaluated (1) NRC processes to ensure information is up to date at the Local Public Document Rooms (LPDRs), (2) possible Nuclear Regulatory Commission commitment to the National Nuclear Safety Network about upgrading LPDRs and recent improvements to the LPDR program, and (3) the assessment of copy charges by LPDRs.
On June 23, 1995, OIG held an exit conference and briefed agency managers on our findings.  They agreed to give consideration to the issues discussed.  Since this report contains no recommendations, we did not provide a draft for agency comment.
Attachment: As stated
cc:
H. Thompson, EDO
J. Milhoan, EDO
K. Cyr, OGC
J. Hoyle, SECY
D. Rathbun, OCA
J. Blaha, EDO
R. Scroggins, OC
P. Norry, ADM
G. Cranford, IRM
R. Bangart, OSP
W. Russell, NRR
E. Jordan, AEOD
D. Morrison, RES
C. Paperiello, NMSS
J. Funches, ICC
W. Beecher, OPA
T. Martin, Region I
S. Ebneter, Region II
J. Martin, Region III
L. Callan, Region IV
OPA-Region I
OPA-Region II
OPA-Region III
OPA-Region IV & FO
National Nuclear Safety Network
Report Synopsis
The U.S. Nuclear Regulatory Commission (NRC) Office of the Inspector General (OIG), has conducted an audit to address concerns raised by the National Nuclear Safety Network (NNSN) regarding the Local Public Document Rooms (LPDRs).  To address NNSN's concerns, we evaluated: (1) NRC processes to ensure information is up to date at the LPDRs, (2) a possible NRC commitment to NNSN about upgrading LPDRs and recent improvements to the LPDR program, and (3) the assessment of copy charges by LPDRs.  This report describes the LPDR program and communicates our findings on these issues.
We found information averages 4 to 5 weeks to arrive at the LPDRs.  While NRC policy requires that documents must be processed in a timely manner, NRC has not defined specific criteria or fully implemented procedures to process documents and ensure their timely availability at the LPDRs.  Although we could not substantiate NNSN's belief that NRC committed to upgrading LPDRs, we found improvements have been made over the years.   Specifically, in the early 1990's NRC upgraded power reactor and high level waste program LPDRs with microfiche equipment and records, which provided the public with access to greater information.  Finally, NRC believes microfiche copy charges, set by the individual LPDR according to NRC guidance, are reasonable.  LPDR patrons also have the option to order documents directly from the NRC Public Document Room, located in Washington, DC, for a lesser charge than some LPDRs.
We agree with the NRC that timely processing of documents is important to the public, who are customers of NRC information.  Therefore, our report makes two suggestions to strengthen NRC's goal of ensuring that documents are processed in a timely manner.
At the conclusion of our effort, we briefed agency managers so they could give
consideration to issues and findings we discussed. This report does not contain
formal recommendations and OIG will not be tracking staff actions to address
our findings.
Introduction
This report provides the results of an audit conducted by the U.S. Nuclear
Regulatory Commission (NRC) Office of the Inspector General (OIG). In April
1995, the National Nuclear Safety Network (NNSN) raised concerns regarding Local
Public Document Rooms (LPDRs) to OIG. Chief among these concerns were: documents
may not be placed at LPDRs in a timely manner, some LPDRs have outdated equipment,
NRC has not met a commitment to NNSN to upgrade LPDRs, and the perceived high
price for copying information. This report communicates information on the LPDR
program and our findings regarding these concerns. Agency managers in the offices
involved were briefed on the results of our audit.
Background
Through the LPDR program, citizens living or working near nuclear power reactors and certain other nuclear facilities have access to NRC records used in licensing and regulating the local facility.  The goals of the LPDR program, which is managed by NRC's Office of Administration (ADM), are to assure that (1) copies of docketed records are placed in the LPDRs in a timely manner, (2) indexes are available that will permit users to find the records they seek within a reasonable amount of time, (3) copies can be made at a reasonable cost, and (4) the integrity of records at the LPDR is maintained.  Eighty-eight LPDRs are currently maintained nationwide in academic, local and state libraries, possessing a variety of reference tools to help patrons locate records.  These tools include user's guides, and document lists that are updated weekly to identify records at the library.  ADM provides training to the library staff at the LPDR on accessing NRC information.
Seventy-five LPDRs located near all commercially operated power reactors and two in support of the high level waste program receive copies of documents in microfiche format.  The eleven remaining LPDRs, located near certain non-power nuclear facilities, are not supplied with microfiche equipment because they maintain small collections of records.  The seventy-seven microfiche equipped LPDRs provide access to more than 1.5 million records publicly released by the NRC since 1981.  These include records on all NRC licensed facilities, such as inspection reports and licensing actions.  Also included are NRC staff and contractor publications, rulemaking documents, and generic issue papers.  Forty-four of these LPDRs have online computer access to NRC's Nuclear Documents System (NUDOCS), which is an automated repository for documents associated with licensing, adjudicatory, and regulatory activities of the Commission.  This information retrieval system enables patrons to search for documents on microfiche using a variety of key words, data, or other identifiers.  NRC has provided equipment or support to all LPDRs that requested NUDOCS search capabilities.
The NRC Headquarters Public Document Room (PDR) also provides citizens access
to public information on NRC and licensees. The PDR, located in Washington,
DC, is the official central repository of NRC's publicly released document collection.
The Office of the Secretary (SECY) manages the PDR program, which is staffed
with professional reference librarians. The PDR receives the same information
as the LPDR plus additional indexes, transcripts of speeches and data on electronic
disks. Besides microfiche, the PDR has information available in paper, audiovisuals,
and searchable text on diskette. A contractor is also located on site to assist
the public with the reproduction of documents.
Findings
We found that information averages four to five weeks to arrive at the LPDRs.
While NRC policy requires that documents must be processed in a timely manner,
NRC has not defined specific criteria or fully implemented procedures to ensure
the timely processing of documents. Although we could not substantiate NNSN's
belief that NRC committed to upgrading LPDRs, we found improvements have been
made over the years. Further, NRC believes microfiche copy charges, set by the
individual LPDR according to NRC guidance, are reasonable. The remainder of
this report provides additional information on these findings. Appendix I provides
additional details on the objective, scope, and methodology used for this audit.
NRC Information Averages Four to Five Weeks to Arrive at LPDRs
Information arrives at LPDRs about four or five weeks from the issue date of a document.  The several step process of producing a microfiche from a document is illustrated in Figure 1.  A document that will become a public record may be issued by NRC's headquarters or regional offices, a licensee or other external sources.  After issuance, documents are forwarded to the NRC's Document Control Desk (DCD), located in Rockville, MD.  NRC makes paper copies of high priority documents for distribution to NRC offices, PDR and other specific addressees.  The DCD forwards an original document to a contractor, managed by the Office of Information Resources Management (IRM), to enter it into NUDOCS and produce the microfiche record.   Once completed, the contractor delivers microfiche to NRC Headquarters Offices and the PDR, and packages microfiche for mailing to LPDRs.
We analyzed 616 records pertaining to 5 nuclear power plants over a two and a half year period, and found that 90 percent of the documents took about 10 calendar days to arrive at the DCD.  However, the remaining 10 percent, or 64 records(1), averaged 76 days to arrive at the DCD.  Externally generated documents accounted for 46 of these remaining documents.
Converting a document to microfiche takes up to two weeks according to IRM
staff, depending on the size of the document. After the microfiche is produced,
the contractor makes daily deliveries to NRC Headquarters Offices and the PDR.
In addition, the contractor packages completed microfiche for weekly distribution
to the LPDRs. Because microfiche is only mailed once a week, a completed microfiche
may wait up to seven days to be packaged for mailing. NRC then mails the packaged
microfiche, which takes about three to five days to arrive at the LPDRs.
NRC Has Not Defined Criteria or Implemented Procedures to Ensure Timely Document
Processing
We found that NRC has a document management policy, but it has not specifically defined criteria or fully implemented procedures to ensure the "timely" processing of documents.  Further, the agency does not have management controls in place to track the timeliness of document processing.  However, NRC has launched a major initiative to improve agency-wide document management by implementing a modern text and image management system to replace the current NUDOCS system.  The conceptual development of this system should be completed by the end of 1995.
Staff Has Not Defined "Timely" for Document Processing
NRC Management Directive (MD) 3.50, "Document Management", states that: "Each program and regional office must develop procedures to ensure that their staff forward, in a timely manner, all appropriate documents for processing."  However, we found that ADM and IRM management and staff could not define "in a timely manner" for document processing from issuance to microfiche, as described previously in Figure 1.  ADM management stated that documents are expected to be available at the LPDRs about two weeks after their entry into NUDOCS, which the microfiche contractor performs when it receives documents from the DCD.  However, this does not encompass the initial document processing steps, when documents travel from issuing office to microfiche contractor.  Further, we found the Office of Nuclear Reactor Regulation (NRR) and Regional Offices have not developed procedures for the initial steps that define "timely" to be a specific period of days.
Periodic Reviews for Timeliness Are Not Being Performed
MD 3.50 also requires Office Directors and Regional Administrators to designate a Document Liaison Officer (DLO).  DLOs are responsible for conducting periodic reviews of the accuracy and timeliness of the office's document submissions.  However, we found that the NRR and Regional Office DLOs have not conducted these reviews since MD 3.50 was issued in December 1992.  According to an IRM manager, IRM has not provided direction for performing periodic reviews to the DLOs.  Further, IRM is revising MD 3.50 and does not expect periodic reviews to be performed before the revision is completed in March 1996.
NRC Lacks Controls to Measure Document Processing Performance
We found that NRC lacks management controls to measure the contractor's performance in producing microfiche.  The NUDOCS Document Processing contract requires that microfiche be produced within five workdays of document receipt by the contractor.  IRM has not systematically checked the contractor's performance in meeting this requirement.  However, it conducts manual spot checks of the current production process.  To enable IRM to better track the status and timing of microfiche production, it is developing an advanced data entry system.  The approximate implementation date of this new system is November 1995.
We also found that ADM lacks a process for ensuring LPDR program goals are met.  One LPDR program goal is to assure records are placed at the LPDR in a timely manner.  ADM management stated their expectation is that microfiche are accessible at the LPDRs about two weeks after documents are entered into NUDOCS.  However, they do not perform regular analysis to determine if this goal is being achieved.
NRC Is Developing a New Document Management System
NRC is in the conceptual phase of developing a new agency-wide system for document
management that will replace NUDOCS. Several working groups have been assembled
to develop a model for the new system, by examining the processes for document:
(1) generation, (2) retrieval, (3) distribution, (4) archiving, and (5) records
management. The working groups are scheduled to complete a concept of operations,
a working model, and system performance specifications by the end of 1995.
A Commitment to NNSN to Upgrade the LPDRs Could Not Be Confirmed, Although
Recent Improvements Have Been Made
We found that no commitments to NNSN about upgrading LPDRs could be substantiated and NRC does not have any current plans to upgrade the LPDRs.  In April 1995, NNSN expressed their belief to OIG that NRC committed to upgrade the LPDRs in late 1993.  However, the team leader of NRC's Review Team for Reassessment of the NRC Program for Protecting Allegers Against Retaliation, who met with NNSN on September 29, 1993, could not recall any discussions to upgrade the LPDRs.  Further, our review of the Review Team's and NNSN's minutes from the September meeting found no mention of any commitments by the NRC to upgrade the LPDRs.  The LPDR Program Manager also stated NNSN has never contacted her or her staff to voice concerns with LPDRs.  Finally, the LPDR manager stated no major improvements to the LPDR program have been initiated because of concerns from an external group in the last ten years.
However, we found that NRC has recently improved the LPDR program by converting paper records to microfiche, supplying equipment to enhance access to information and increasing means for LPDR patrons to contact NRC.  In the early 1990's, NRC converted record collections from paper to microfiche to reduce the burden on LPDRs from the constant growth of NRC records on limited library shelf space.  This conversion also expanded LPDR patrons' access to information on more than their local plant.  NRC furnishes LPDRs with machines that view and print microfiche records.  These machines are scheduled to be replaced every 10 years, or sooner if needed.  According to the information we reviewed, the oldest machine currently in use is a 1988 model.  IRM staff stated that there are no plans to upgrade existing LPDR equipment.
NRC also supplies LPDRs with computer equipment needed to assist the public with on-line access to NRC information.  However, NRC does not fund the installation of telephone lines needed for access to NUDOCS.  The LPDR program manager stated that the goals of the LPDR program are achievable without NUDOCS access because indexes are supplied with the weekly microfiche deliveries.
Customer service available to LPDR patrons has been enhanced as well.  For example, the public can contact NRC on a toll-free telephone line for reference assistance, and provide feedback to NRC via a recently developed postcard.  Information from these improvements will be reviewed by the LPDR program and, if necessary, plans for improvements will be considered.
We also reviewed recent and planned initiatives to increase NRC's openness
and responsiveness to the public in a draft report titled "Responsiveness to
the Public" (NUREG/BR-0199), published in March 1995. This report discusses
the recent LPDR program improvements. The agency has launched a Public Responsiveness
Initiative due to the new emphasis on Federal agencies "putting the customer
first", developed by the National Performance Review (NPR). In the draft report,
NRC noted that it had not previously given priority attention to public responsiveness
in all NRC programs nor had there been a systemic review of NRC business activities
to identify potential improvements.
NRC Believes Copy Charges By LPDRs Are Reasonable
We found that microfiche copy charges are set by the individual LPDR and NRC believes them to be reasonable.  NRC permits LPDRs to charge for copies made from microfiche machines in order to recoup their cost for paper, toner, and light bulbs.  As a policy, NRC has established a maximum copying charge of 25 cents per page.  In a 1994 NRC study of 58 LPDRs, 18 or 31% of the LPDRs were found to charge the maximum amount, while 40 or 69% charged less than 25 cents.  Twenty-five LPDRs or 43% of those studied charge 10 cents or less (see Figure 2).  Based on the NRC assessment of the charges, NRC believes the cost of copying records at the LPDRs are reasonable.  In addition, LPDR patrons have the option to order copies directly from the PDR for approximately 9 cents per page plus tax and postage.
Conclusions
While NRC has stated its goal is to provide information to the public via the LPDRs in a timely manner, NRC has not set specific timeliness criteria for document processing or fully implemented procedures to ensure that documents are processed in a timely manner.  Also, NRC has not developed the management controls needed to measure its performance, and the performance of its microfiche contractor, to process documents.  We agree with the NRC that timely processing of documents is important to the public since they are customers of the information contained in NRC's documents.  Ensuring the timeliness of document processing helps to show NRC's commitment to achieving the NPR's emphasis on Federal agencies becoming customer service organizations and "putting the customer first."
We believe the importance of providing documents to the public in a timely manner transcends the LPDR program, which is dependent upon the overall agency document management process.  The LPDR program is a customer of this process with little ability to control the timely distribution of information to the LPDRs.  However, over the years the LPDR program has undergone improvements to be more efficient and responsive to the public.
We also recognize that the agency is in the conceptual phase of developing
a new agency-wide system for document management. As part of its efforts to
improve its overall management of documents, the agency may wish to consider
(1) establishing specific criteria and time standards for the processing of
agency documents, and (2) developing and implementing management controls to
measure the performance of the agency in processing documents.
Objective, Scope, and Methodology
The objective of our audit was to evaluate the following issues: 1) whether the U.S. Nuclear Regulatory Commission (NRC) has policies and procedures to ensure information is up to date at Local Public Document Rooms (LPDR), 2) NRC efforts to upgrade the LPDR program, 3) the assessment of microfiche copy charges at LPDRs, and 4) potential commitments made by NRC to upgrade LPDRs.
To conduct this audit, we interviewed management and staff from the Offices of Administration, Information Resources Management, Nuclear Reactor Regulation, Enforcement, and the Regional Offices.  We reviewed NRC Management Directives and other supporting documents.  We also independently examined information in NRC's Nuclear Document System (NUDOCS) for 616 records from 5 randomly selected power reactor dockets.  The records sampled were from January 1992 to July 1994.
We reviewed the management controls for selected portions of the agency's document management process.  To evaluate the controls, we reviewed published agency policy statements, agency operating procedures, and contract specifications for the contractor that produces microfiche.  Our findings are discussed in the report.
Our review was performed in accordance with generally accepted Government auditing
standards during the period of May through June 1995.
U.S. NRC Functional Organization Chart
Figure 3: The
U.S. Functional Organization Chart
Major Contributors to this Report
Anthony C. Lipuma Director, Program and Financial Audits
Scott W. Buchan Senior Management Analyst
Agapi Doulaveris Management Analyst
Notes:
1.  Record totals do not exactly add to 100 percent due to rounding in the analysis.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees